Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   CALIFORNIA IMPROPERLY
 CLAIMED ENHANCED FEDERAL
REIMBURSEMENT FOR MEDICAID
  FAMILY PLANNING SERVICES
         PROVIDED IN
CENTRAL LOS ANGELES COUNTY


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                        July 2014
                                                      A-09-13-02012
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 California claimed at least $2.9 million for fiscal year 2011 in unallowable enhanced
 Federal reimbursement for Medicaid family planning services provided in central
 Los Angeles County.

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General reviews found that multiple States improperly
claimed reimbursement at the 90-percent rate for services that were eligible only for the regular
FMAP or were ineligible for Federal reimbursement. In California, we are conducting reviews
of family planning services provided under the Family Planning, Access, Care, and Treatment
(FPACT) program in several counties. One of those reviews found that the California
Department of Health Care Services (State agency) claimed approximately $5.7 million in
unallowable Federal reimbursement for family planning services provided in San Diego County.

The objective of this review was to determine whether the State agency complied with certain
Federal and State requirements when claiming Federal reimbursement at the 90-percent rate for
family planning services provided under the FPACT program in central Los Angeles County.

BACKGROUND

In California, the State agency administers the Medicaid program. The State agency’s FPACT
program extends Medicaid eligibility for family planning services to individuals of childbearing
age who reside in California and have incomes up to 200 percent of the Federal poverty level.
Individuals eligible for the FPACT program are generally not otherwise eligible for Medicaid.

The Centers for Medicare & Medicaid Services’ State Medicaid Manual states that Federal
reimbursement is available at the 90-percent rate only for services clearly provided for family
planning purposes. Under the California State plan, Federal reimbursement is available at the
regular FMAP for family-planning-related services provided as part of or as followup to a family
planning service. The regular FMAP decreased from 61.59 percent to 50 percent during our
audit period.

HOW WE CONDUCTED THIS REVIEW

We limited our review to FPACT program claims with provider billing ZIP Codes in central
Los Angeles County. (We are reviewing east and southeast Los Angeles County in separate
audits.) From October 1, 2010, through September 30, 2011, the State agency claimed
approximately $35.6 million ($27.6 million Federal share) for family planning services provided
in central Los Angeles County. Some of the claim lines were for the same family planning
service provided to a beneficiary on the same service date and billed on the same claim. We
grouped claim lines that had the same claim control number, beneficiary identification number,


Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)        i
date of service, and procedure code. For this report, we refer to these grouped claim lines as
unique “services.” We did not review approximately $1.6 million for services considered to be
at low risk of being unallowable and for reimbursements determined to be immaterial. From the
remaining $34 million, we reviewed a stratified random sample of 120 services.

WHAT WE FOUND

The State agency did not always comply with certain Federal requirements when claiming
Federal reimbursement at the 90-percent rate for family planning services provided under the
FPACT program in central Los Angeles County. Of the 120 sampled services, 85 complied and
35 did not comply with requirements. Of the 35 services, 23 were eligible for reimbursement
only at the regular FMAP because they were family-planning-related (provided as part of or as
followup to family planning services), and 12 were ineligible for reimbursement because the
services were not clearly provided for family planning purposes. On the basis of our sample
results, we estimated that the State agency claimed at least $2,953,936 in unallowable Federal
reimbursement.

The overpayment occurred because the State agency’s Medicaid Management Information
System (MMIS) lacked edits to prevent family-planning-related services from being claimed at
the 90-percent rate. Also, the State agency did not have billing procedures to ensure that it
claimed reimbursement at the 90-percent rate only for services clearly provided for family
planning purposes.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $2,953,936 to the Federal Government,

    •   establish MMIS edits to ensure that FPACT claims meet Federal and State requirements
        for reimbursement at the 90-percent rate and at the regular FMAP for family-planning-
        related services, and

    •   establish billing procedures to ensure that only services clearly provided for family
        planning purposes are claimed for reimbursement at the 90-percent rate.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency agreed that 11 of the 35 family
planning services were family-planning-related services eligible for reimbursement only at the
regular FMAP or were not clearly provided for family planning purposes and estimated that it
would refund $1,007,331 to the Federal Government. However, the State agency disagreed that
the remaining 24 services were unallowable. The 24 services consisted of 17 services involving
annual visits for men and 7 services for the testing or treatment of sexually transmitted infections
that were not provided as part of a family planning visit. The State agency provided information
on actions that it had taken or planned to take to address our second and third recommendations.


Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)        ii
We based our findings on the Federal requirements effective during our audit period. State
medical professionals reviewed the medical records for the 35 services that we determined did
not comply with Federal requirements and concurred with our findings. In its comments, the
State agency did not say that we incorrectly identified the 24 services as annual visits for men or
testing or treatment of sexually transmitted infections. For these reasons, we maintain that our
findings and recommendations are valid.




Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)       iii
                                                     TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 Medicaid Program ....................................................................................................1
                 Medicaid Coverage of Family Planning Services ....................................................1
                 California’s Medicaid Family Planning Program ....................................................2
                 State Requirements for the Family Planning Program ............................................2

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................3

           Federal Requirements ..........................................................................................................4

           State Agency Did Not Comply With Federal Requirements for
             Family Planning Services .................................................................................................4
                  Family-Planning-Related Services Were Eligible for Reimbursement
                    Only at the Regular Federal Medical Assistance Percentage ...............................4
                  Services Were Not Clearly Provided for Family Planning Purposes ......................4

RECOMMENDATIONS .................................................................................................................5

STATE AGENCY COMMENTS ....................................................................................................5

OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................................6

APPENDIXES

           A: Related Office of Inspector General Reports .................................................................7

           B: Audit Scope and Methodology.......................................................................................8

           C: Statistical Sampling Methodology ...............................................................................11

           D: Sample Results and Estimates .....................................................................................13

           E: State Agency Comments ..............................................................................................14




Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)                                                      iv
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General (OIG) reviews found that multiple States improperly
claimed reimbursement at the 90-percent rate for services that were eligible only for the regular
FMAP or were ineligible for Federal reimbursement. In California, we are conducting reviews
of family planning services provided under the Family Planning, Access, Care, and Treatment
(FPACT) program in several counties. One of those reviews found that the California
Department of Health Care Services (State agency) claimed approximately $5.7 million in
unallowable Federal reimbursement for family planning services provided in San Diego County. 1
(Appendix A lists related OIG reports on States’ claims for family planning services.)

OBJECTIVE

Our objective was to determine whether the State agency complied with certain Federal and State
requirements when claiming Federal reimbursement at the 90-percent rate for family planning
services provided under the FPACT program in central Los Angeles County.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

Medicaid Coverage of Family Planning Services

States must furnish family planning services and supplies to individuals of childbearing age who
are eligible under the State plan and desire such services and supplies (the Social Security Act
(the Act), § 1905(a)(4)(C)). Federal law and regulations authorize Federal reimbursement for
family planning services at the 90-percent rate (the Act, § 1903(a)(5), and 42 CFR
§ 433.10(c)(1)).

The CMS State Medicaid Manual (the Manual) states that family planning services include those
that prevent or delay pregnancy or otherwise control family size and may also include infertility
treatments (§ 4270). The Manual indicates that States are free to determine which services and

1
 California Improperly Claimed Enhanced Federal Reimbursement for Medicaid Family Planning Services
Provided in San Diego County, A-09-11-02040, issued December 20, 2012.


Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)           1
supplies will be covered as long as those services are sufficient in amount, duration, and scope to
reasonably achieve their purpose. However, only services and supplies clearly provided for
family planning purposes may be claimed for Federal reimbursement at the 90-percent rate.

Section 2303 of the Patient Protection and Affordable Care Act (ACA) amended section
1902(a)(10) of the Act to give States the option to offer family planning services and supplies to
individuals whose income does not exceed the eligibility level established by the State and
allowed for additional family-planning-related services. CMS’s State Medicaid Directors Letter
10-013, issued July 2, 2010, provides further guidance on the family-planning-related services
mentioned in the ACA.

California’s Medicaid Family Planning Program

In California, the State agency administers the Medicaid program. In accordance with the ACA,
the State agency’s FPACT program extends Medicaid eligibility for family planning services to
individuals of childbearing age who reside in California and have incomes up to 200 percent of
the Federal poverty level. Individuals eligible for the FPACT program are generally not
otherwise eligible for Medicaid.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process Medicaid claims for payment. The
expenditures related to the claims are reported on the Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program, for Federal reimbursement.
During our audit period, the regular FMAP for California was 61.59 percent at the start of
Federal fiscal year (FFY) 2011 and decreased each quarter thereafter to 50 percent at the end of
FFY 2011. 2

State Requirements for the Family Planning Program

California’s State Plan Amendment (SPA) 10-014, effective July 1, 2010, included coverage of
family planning services and supplies and family-planning-related services. The SPA required
that the State agency deduct 13.95 percent from its total expenditures when claiming Federal
reimbursement to account for clients who receive family planning services but are not eligible
for public benefits under Federal law, such as nonqualified aliens.

According to the State agency’s Family PACT Policies, Procedures and Billing Instructions
Manual, the FPACT program requires family planning providers to bill for services using special
diagnosis codes, called S-codes. The S-code is based on the family planning method selected by
the FPACT client, such as oral contraceptive, contraceptive injection, or barrier method.



2
  The FMAPs by quarter for FFY 2011 were 61.59 percent (first quarter), 58.77 percent (second quarter),
56.88 percent (third quarter), and 50 percent (fourth quarter). The American Recovery and Reinvestment Act of
2009 (Recovery Act), P.L. No. 111-5, provided for temporary increases in FMAP rates. P.L. No. 111-226 amended
the Recovery Act to extend the increases through the third quarter of FFY 2011, with a phasedown over the second
and third quarters of FFY 2011.


Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)                    2
HOW WE CONDUCTED THIS REVIEW

We limited our review to FPACT program claims with provider billing ZIP Codes in central
Los Angeles County. 3 (We are reviewing east and southeast Los Angeles County in separate
audits.) From October 1, 2010, through September 30, 2011, the State agency claimed
$35,578,298 ($27,553,613 Federal share) for family planning services provided in central
Los Angeles County. 4 Some of the claim lines were for the same family planning service
provided to a beneficiary on the same service date and billed on the same claim. We grouped
claim lines that had the same claim control number, beneficiary identification number, date of
service, and procedure code. For this report, we refer to these grouped claim lines as unique
“services.” We did not review $1,578,864 for services considered to be at low risk of being
unallowable and for reimbursements determined to be immaterial. From the remaining
$33,999,434, we reviewed a stratified random sample of 120 services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B describes our audit scope and methodology, Appendix C describes our statistical
sampling methodology, and Appendix D describes our sample results and estimates.

                                                  FINDINGS

The State agency did not always comply with certain Federal requirements when claiming
Federal reimbursement at the 90-percent rate for family planning services provided under the
FPACT program in central Los Angeles County. Of the 120 sampled services, 85 complied and
35 did not comply with requirements. Of the 35 services, 23 were eligible for reimbursement
only at the regular FMAP because they were family-planning-related (provided as part of or as
followup to family planning services), and 12 were ineligible for reimbursement because the
services were not clearly provided for family planning purposes. On the basis of our sample
results, we estimated that the State agency claimed at least $2,953,936 in unallowable Federal
reimbursement.

The overpayment occurred because the State agency’s MMIS lacked edits to prevent family-
planning-related services from being claimed at the 90-percent rate. Also, the State agency did
not have billing procedures to ensure that it claimed reimbursement at the 90-percent rate only
for services clearly provided for family planning purposes.


3
  We divided Los Angeles County into six areas using natural divisions, such as major highways and geographical
features. Our database of claim lines contained 193 provider billing ZIP Codes. Fifty-two of these ZIP Codes were
located in the central area of Los Angeles County, which we refer to as “central Los Angeles County.”
4
 Our review did not include claims for family planning drugs and supplies, which will be covered in a future audit
combining providers from all of Los Angeles County.


Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)                          3
FEDERAL REQUIREMENTS

The Manual states that only services and supplies clearly provided for family planning purposes
may be claimed for Federal reimbursement at the 90-percent rate (§ 4270.B).

CMS’s State Medicaid Directors Letter 10-013 states that “family planning-related services are
medical diagnosis and treatment services that are provided pursuant to a family planning service
in a family planning setting” and are reimbursable at the State’s regular FMAP. The letter
further states: “Family planning-related services have historically been considered those services
provided in a family planning setting as part of or as follow-up to a family planning visit. Such
services are provided because they were identified, or diagnosed, during a family planning visit.”
Included in these family-planning-related services are annual visits for men at an office or a
clinic. According to the letter, such a family planning visit may include a comprehensive patient
history, physical, laboratory tests, and contraceptive counseling.

STATE AGENCY DID NOT COMPLY WITH FEDERAL REQUIREMENTS FOR
FAMILY PLANNING SERVICES

On the basis of our review of client medical records for 120 sampled services, we found that the
State agency did not comply with Federal requirements for 35 family planning services,
consisting of 23 family-planning-related services that were eligible for reimbursement only at the
regular FMAP and 12 services that were not clearly provided for family planning purposes. 5
Using our sample results, we estimated that the State agency claimed at least $2,953,936 in
unallowable Federal reimbursement.

Family-Planning-Related Services Were Eligible for Reimbursement Only at the Regular
Federal Medical Assistance Percentage

Twenty-three services were family-planning-related but were improperly claimed at the
90-percent rate. Of these services, 17 were annual visits for male patients, and 6 were followup
visits to a previous family planning visit. Because the services were family-planning-related
services, they were eligible for Federal reimbursement only at the regular FMAP. The amount
that we disallowed was the difference between reimbursement at the 90-percent rate and
reimbursement at the regular FMAP. The State agency’s MMIS lacked edits to prevent family-
planning-related services from being claimed at the 90-percent rate.

Services Were Not Clearly Provided for Family Planning Purposes

Of the 12 services not clearly provided for family planning purposes, 7 were for the testing or
treatment of sexually transmitted infections (which were not provided as part of a family
planning visit), and 5 were for services provided for other non-family-planning purposes (such as
a breast exam). Because the services were not clearly for family planning, they were not eligible
for Federal reimbursement. The State agency did not have billing procedures to ensure that it
claimed reimbursement at the 90-percent rate only for services provided for family planning

5
 During our audit, State medical professionals performed a medical review of the 35 services that we determined
did not comply with Federal requirements. The medical professionals concurred with our findings.


Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)                       4
purposes. Specifically, the State agency required providers to use S-codes as primary diagnosis
codes, which allowed services provided for purposes other than family planning to be incorrectly
claimed as family planning. The S-code is based on the family planning method selected by the
FPACT client, not the purpose of the service.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,953,936 to the Federal Government,

    •   establish MMIS edits to ensure that FPACT claims meet Federal and State requirements
        for reimbursement at the 90-percent rate and at the regular FMAP for family-planning-
        related services, and

    •   establish billing procedures to ensure that only services clearly provided for family
        planning purposes are claimed for reimbursement at the 90-percent rate.

                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our overall finding that
it did not comply with Federal requirements for family planning services. However, the State
agency agreed that 11 of the 35 family planning services were family-planning-related services
eligible for reimbursement only at the regular FMAP or were not clearly provided for family
planning purposes. Regarding our first recommendation, the State agency estimated that it
would refund $1,007,331 to the Federal Government. The State agency also provided
information on actions that it had taken or planned to take to address our second and third
recommendations.

The State agency had the following comments on our specific findings:

    •   Regarding our finding that 23 services were eligible for reimbursement only at the
        regular FMAP, the State agency partially agreed with our finding and the related (second)
        recommendation. The State agency disagreed that 17 services involving annual visits for
        men were unallowable and stated that it had requested CMS guidance and clarification on
        the distinction between family planning and family-planning-related services and the
        sequencing of such services. However, the State agency agreed that the remaining six
        services were unallowable.

    •   Regarding our finding that 12 services were not clearly provided for family planning
        purposes, the State agency partially agreed with our finding and the related (third)
        recommendation. The State agency disagreed that seven services for the testing or
        treatment of sexually transmitted infections that were not provided as part of a family
        planning visit were unallowable and stated that it had requested CMS guidance and
        clarification on the criteria for family-planning-related services. However, the State
        agency agreed that the remaining five services were unallowable.


Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)         5
The State agency’s comments are included in their entirety as Appendix E.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

We based our findings on the Federal requirements effective during our audit period. State
medical professionals reviewed the medical records for the 35 services that we determined did
not comply with Federal requirements and concurred with our findings. In its comments, the
State agency did not say that we incorrectly identified the 24 services as annual visits for men or
testing or treatment of sexually transmitted infections.

    •   Regarding the 17 services involving annual visits for men, we based our finding on
        CMS’s State Medicaid Directors Letter 10-013, which provides examples of
        family-planning-related services, such as annual visits for men that may include a
        comprehensive patient history, physical, laboratory tests, and contraceptive counseling.
        The letter states that such visits are included as family-planning-related services
        reimbursable at the State’s regular FMAP, and the State medical professionals concurred
        that these services were family-planning-related.

    •   Regarding the seven services for the testing or treatment of sexually transmitted
        infections, we based our finding on the Manual, which states that only services and
        supplies clearly provided for family planning purposes may be claimed for Federal
        reimbursement at the 90-percent rate. Nothing in the medical records indicated that the
        services were related to family planning, and the State agency provided no additional
        documentation. In addition, the State medical professionals concurred that these services
        were not clearly provided for family planning purposes.

CMS issued State Medicaid Directors Letter 14-003, effective April 16, 2014, which provides
guidance on services related to annual visits for men and sexually transmitted infections. This
guidance differs from State Medicaid Directors Letter 10-013, issued July 2, 2010. Because we
based our findings on the CMS family planning guidance effective during our audit period, we
maintain that our findings and recommendations are valid.




Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)           6
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                              Report             Date
                             Report Title
                                                                              Number            Issued
Missouri Did Not Always Correctly Claim Costs for Medicaid                 A-07-12-01118      1/28/2014
Family Planning Drugs for Calendar Years 2009 and 2010

California Improperly Claimed Enhanced Federal                             A-09-12-02077      6/25/2013
Reimbursement for Medicaid Family Planning Drugs and
Supplies Provided in San Diego County

Missouri Did Not Always Correctly Claim Costs for Medicaid                 A-07-12-01117      6/12/2013
Family Planning Sterilization Procedures for Calendar Years
2009 and 2010

Missouri Incorrectly Claimed Federal Reimbursement for                     A-07-12-01121      3/13/2013
Inpatient Claims With Sterilization and Delivery Procedures for
Calendar Years 2009 and 2010

Arkansas Inappropriately Received Medicaid Family Planning                 A-06-11-00022      1/18/2013
Funding for Federal Fiscal Years 2006 Through 2010

California Improperly Claimed Enhanced Federal                             A-09-11-02040      12/20/2012
Reimbursement for Medicaid Family Planning Services
Provided in San Diego County

Wyoming Incorrectly Claimed Enhanced Reimbursement for                     A-07-11-01100      8/17/2012
Medicaid Family Planning Sterilization Costs

North Carolina Incorrectly Claimed Enhanced Federal                        A-04-10-01091      6/15/2012
Reimbursement for Some Medicaid Waiver Services That Were
Not Family Planning

North Carolina Incorrectly Claimed Enhanced Federal                        A-04-10-01089      6/15/2012
Reimbursement for Some Medicaid Services That Were Not
Family Planning

Oregon Improperly Claimed Federal Reimbursement for                        A-09-11-02010      1/26/2012
Medicaid Family Planning Services Provided Under the Family
Planning Expansion Project

Review of Medicaid Family Planning Services Claimed Under                  A-09-10-02043      6/29/2011
the Oregon Health Plan During the Period October 1, 2006,
Through September 30, 2009




Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)            7
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We limited our review to FPACT program claims with                  Figure: Los Angeles County
provider billing ZIP Codes in central Los Angeles County.
Because of the large size of Los Angeles County, we divided the
county into areas using natural divisions, such as major highways
and geographical features. The three areas identified in the figure
represented 73 percent of the total amount that the State agency
claimed in FFY 2011 for family planning services provided in
Los Angeles County. (We are reviewing east and southeast
Los Angeles County in separate audits. We are not reviewing the
rest of the county.)

From October 1, 2010, through September 30, 2011, the State
agency claimed $35,578,298 ($27,553,613 Federal share) for family planning services provided
in central Los Angeles County, representing 1,269,640 claim lines. Some of the claim lines were
for the same family planning service provided to a beneficiary on the same service date and
billed on the same claim. We grouped claim lines that had the same claim control number,
beneficiary identification number, date of service, and procedure code, resulting in a total of
1,264,875 unique services. We did not review 312,469 services, totaling $1,578,864, that were
considered to be at low risk of being unallowable or that had reimbursements determined to be
immaterial. We reviewed a stratified random sample from the remaining 952,406 services,
totaling $33,999,434.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective. We limited
our review to determining whether the services provided to FPACT clients were eligible for
Federal reimbursement at the 90-percent rate. We did not determine whether the clients met the
eligibility requirements of the FPACT program.

We conducted our audit from January to July 2013 and performed our fieldwork at the State
agency’s office in Sacramento, California, and at provider locations in central Los Angeles
County.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal and State laws, regulations, and guidance and the State plan;

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to State agency officials concerning Medicaid family planning claims;




Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)      8
    •   held discussions with State agency officials to gain an understanding of State policies and
        controls for claiming Federal reimbursement for family planning services;

    •   obtained family planning claim data from the State agency’s MMIS for the period
        October 1, 2010, through September 30, 2011, representing 1,269,640 claim lines for
        family planning services provided in central Los Angeles County, totaling $35,578,298
        ($27,553,613 Federal share); 6

    •   grouped the 1,269,640 claim lines by claim control number, beneficiary identification
        number, date of service, and procedure code, which resulted in 1,264,875 unique
        services;

    •   removed 312,469 services, totaling $1,578,864, consisting of 205,300 services with
        reimbursements that we determined to be immaterial and 107,169 services we considered
        to be at low risk of being unallowable; and

    •   developed a stratified random sample from the remaining 952,406 services, totaling
        $33,999,434, by doing the following:

             o We created three strata, representing services with Medicaid-reimbursed amounts
               from $5.00 to $19.99, $20.00 to $39.99, and $40.00 or more.

             o We selected a total of 120 sample units, consisting of 40 sample units for each of
               the 3 strata.

             o We reviewed the stratified random sample of 120 services to determine whether
               family planning services complied with certain Federal and State requirements by
               (1) contacting providers to obtain medical record information for each sampled
               service, (2) reviewing the written physician notes to confirm the purpose of the
               client’s visit, and (3) discussing with State medical professionals those sampled
               services that we determined were unallowable for enhanced Federal
               reimbursement.

             o We estimated the unallowable Federal reimbursement paid in the sampling frame.

See Appendix C for the details of our statistical sampling methodology and Appendix D for our
sample results and estimates.

To determine the State agency’s Federal share, we reduced the total amount claimed by the
CMS-approved deduction percentage of 13.95 percent (for clients who receive family planning
services but are not eligible for public benefits under Federal law) and then applied the
90-percent rate.



6
 The claim data consisted of services paid from October 1, 2010, through September 30, 2011, and provided on or
after July 1, 2010.


Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)                       9
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)   10
               APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of claim lines for Medicaid family planning services provided in
central Los Angeles County on or after July 1, 2010; paid by the State agency to providers from
October 1, 2010, through September 30, 2011; and claimed at the 90-percent rate under the
FPACT program.

SAMPLING FRAME

The State agency provided us with a database of FPACT claims, from which we identified
1,269,640 claim lines for family planning services provided in central Los Angeles County,
totaling $35,578,298 for our audit period. Some of these claim lines were for the same family
planning service provided to a beneficiary on the same service date and billed on the same claim.
We grouped the claim lines by claim control number, beneficiary identification number, date of
service, and procedure code, which resulted in 1,264,875 unique services. From the resulting
1,264,875 services, we removed 107,169 services considered to be at low risk of being
unallowable, such as urine pregnancy tests. We established a materiality level of $5.00 or more
and removed 205,300 services that had a reimbursement of less than this amount. After we
removed these services, the sampling frame consisted of 952,406 services totaling $33,999,434
($26,330,861 Federal share).

SAMPLE UNIT

The sample unit was a unique service, defined as one or more of the same family planning
procedure code billed on the same claim and for the same service date for a single beneficiary.

SAMPLE DESIGN

We used a stratified random sample to test the services for allowability. To accomplish this, we
separated the sampling frame into three strata:

    •   Stratum 1: services with a Medicaid-reimbursed amount from $5.00 to $19.99,
        consisting of 284,603 services.

    •   Stratum 2: services with a Medicaid-reimbursed amount from $20.00 to $39.99,
        consisting of 438,246 services.

    •   Stratum 3: services with a Medicaid-reimbursed amount of $40.00 or more, consisting of
        229,557 services.

SAMPLE SIZE

We selected a total of 120 sample units, consisting of 40 sample units for each of the 3 strata.




Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)        11
SOURCE OF RANDOM NUMBERS

We generated the random numbers for each stratum using the OIG, Office of Audit Services
(OAS), statistical software.

METHOD FOR SELECTING SAMPLE UNITS

The stratum 1 frame was numbered 1 through 284,603, the stratum 2 frame was numbered
1 through 438,246, and the stratum 3 frame was numbered 1 through 229,557. Using the random
numbers generated for each stratum, we selected the corresponding frame items in each of the
strata.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal reimbursement
paid.




Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)   12
                     APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                              Table 1: Sample Results (Total Amounts)

              Number of                                                        Number of        Value of
              Services in         Value of         Sample       Value of       Unallowable     Unallowable
Stratum        Stratum            Stratum           Size        Sample          Services        Services
    1          284,603           $3,576,458           40           $524             11            $142
    2          438,246           14,411,370           40          1,373             11              402
    3          229,557           16,011,606           40          2,799             13              824
  Total        952,406          $33,999,434          120         $4,696             35           $1,368


                         Table 2: Sample Results (Federal Share Amounts)

                                                                                                Value of
                                  Value of                      Value of                       Unallowable
              Number of           Stratum                        Sample       Number of         Services
              Services in         (Federal        Sample        (Federal      Unallowable       (Federal
Stratum        Stratum             Share)          Size          Share)        Services          Share)
    1          284,603           $2,769,788          40             $406           11              $63
    2          438,246           11,160,885          40            1,063           11              127
    3          229,557           12,400,188          40            2,168           13              431
  Total        952,406          $26,330,861         120           $3,637           35             $621


                        Table 3: Estimated Value of Unallowable Services
                      (Limits Calculated for a 90-Percent Confidence Interval)

                                             Total Amount             Federal Share
                     Point estimate           $10,145,688               $4,322,315
                     Lower limit                7,391,141                2,953,936
                     Upper limit               12,900,234                5,690,694




 Medicaid Family Planning Services in Central Los Angeles County, California (A-09-13-02012)           13
                                   APPENDIX E: STATE AGENCY COMMENTS 



      Sta.te of California-Health and Human Servires Agency                                   Department of Health Care Services



                                             SECRETARY'S ACTION REQUESTED

        TO:                                Diana S. Doo ley, Secretary
                                           Health and Human Services Agency

        FROM:                              Toby Douglas, Director
                                           Department of Health Care Services

        PREPARED BY:                       Sarah Hollister, Audit Coordinator
                                           Internal Audits

        DATE:                              March 25, 2014

        SUBJECT:                           Department of Health Care Services' response to the Office of Inspector
                                           General's draft report entitled , California Improperly Claimed Enhanced
                                           Federal Reimbursement for Medicaid Family Planning Services in Central
                                           Los Angeles County, Report Number A-09-13-02012.



                          0   Request for Approval                              D   For Secretary's Information

                          D   Request for Discussion                            0   For Secretary's Signature

                                                                                D For Governor's Information


        APPROVED:



        _ _/Toby Doug las/.,--_ _ _ _ _ __                                      -=-,.---_3/27/14_ _ _ _ __
        Toby Douglas, Director                                                  Date
        Department of Health Care Services



        _ _/Robert Ducay for/.,--_ _ _ _ __                                     -=-,...----4/2/14 - - - ­
        Diana S. Dooley, Secretary                                              Date
        Health and Human Services Agency




      OHCS 1 053 (Revised 12108)




.Medicaid Fconily Plcmning Services in Central Los Angeles County, California (A-09-13-02012)                                      14
             DHCS' Response to Draft Report
             13-25 FPACT Central L.A
             Page 2


             SUMMARY/PRO-CON ARGU MENTS:

             Background
             The section 1115 waiver for the Fami ly Planning, Access, Care, and Treatment (Family
             PACT) program states that Federal Medicaid reimbursement is available to States for
             family planning services, includ ing drugs and supplies, whose primary purpose is family
             planning and that are provided in a family planning setting. Federal reimbursement is
             available at an enhanced Federa l medical assistance percentage (FMAP) of 90 percent
             (90-percent rate).

             The Office of Inspector General (OIG) conducted an audit of family planning services
             claimed under the Family PACT program to determine whether the Department of
             Health Care Services (DHCS) complied with certain Federal and State requ irements
             when c laiming Federal reimbursement at the 90-percent rate for family planning drugs
             and supplies. The audit period included claims processed during the period October 1,
             2010 through September 30, 2011 in Central Los Angeles County.

             Summary of Findings
             OIG identified that DHCS did not always comply with certain Federal requirements
             when claiming Federal reimbursement at the 90-percent rate for family planning
             services provided under the FPACT program in central Los Ange les County. Of the 120
             sampled services, 85 complied and 35 did not comply with requ irements. Of the 35
             services, 23 were eligible for reimbursement only at the regular FMAP because they
             were family-planning-related (provided as part of or as follow-up to fami ly plann ing
             services) , and 12 were ineligible for reimbursement because the services were not
             c learly provided for family planning purposes. Based on the OIG sample results, the
             OIG estimated that the State agency claimed at least $2,953,936 in unallowable Federal
             reimbursement.

             The overpayment occurred because the State agency's Medicaid Management
             Information System (MM IS) lacked edits to prevent family-planning-related services
             from being claimed at the 90-percent rate. Also, the State agency did not have billing
             procedures to ensure tha t it claimed reimbursement at the 90-percent rate only for
             services clearly provided for family planning purposes.
             OIG recommends DHCS:

                • 	 Refund $2,953,936 to the Federal Government,

                • 	 Establish billing procedures ensuring claims reimbursed at the 90-percent rate
                    are on ly drugs and supplies whose primary purpose is family plann ing,




.Medicaid Fconily Plcmning Services in Central Los Angeles County, California (A-09-13-02012)           15
             DHCS' Response to Draft Report
             13-25 FPACT Central L.A
             Page 3


                • 	 Establish MMIS ed its to ensure family planning claims meet Federal and State
                    requirements for reimbursement at the 90-percent rate and at the regular FMAP
                    for drugs related to treatments for complications.

             DHCS Response

             Please see attached

             EFFECTS ON EXISTING LAW: N/A

             ES TIMATED COST: Between $ 1,007,331 and $2,953,936

             TI ME FACTOR: Due to Agency by April2, 2014
                           Due to OIG by April 7, 2014.

             RECOMMENDATION: Approval




.Medicaid Fconily Plcmning Services in Central Los Angeles County, California (A-09-13-02012)       16
             DHCS' Response to Draft Report
             13-25 FPACT Central L.A
             Page 4


             Department of Health Care Services Response to Office of the Inspector
             General's Report titled:
             California Improperly Claimed Enhanced Federal Reimbursement for Medicaid
             Family Planning Services Provided in Central Los Angele s County

             Finding #1: The State agency did not comply with Federal requirements for
             family planning services.

             On the basis of OIG's review of client medical records for 120 sampled services, the
             OIG found that the State agency did not comply with Federal requirements for 35 family
             planning services, consisting of 23 family-planning-related services that were eligible for
             reimbursement only at the regular FMAP and 12 services that were not clearly provided
             for family planning purposes. Using OIG's sample results, it was estimated that the
             State agency claimed at least $2,953,936 in unallowable Federal reimbursement

             Recommendation: The OIG recommends DHCS refund $2,953,936 to the Federal
             Government.

             Response: The Department of Health Care Services (DHCS) disagrees with the
             finding and recommendation .

             DHCS has reviewed the sampling methodology, sampling results, findings, and
             estimates. DHCS agrees that 11 of the 35 services were either not clearly provided for
             family planning purposes, or were family planning-related services eligible only at the
             regular FMAP . DHCS estimates a refund of $1,007,331 to the Federal Government.


             Finding #2: Services were not c learly provided for Family Planning purposes.

             Of the 12 services not clearly provided for a family planning purpose , 7 were for the
             testing or treatment of sexually transmitted infections (which were not provided as part
             of a family planning visit), and 5 were for services provided for other non-family-planning
             purposes (such as a breast exam). Because the services were not clearly for family
             planning, they were not eligible for Federal reimbursement. The State agency did not
             have billing procedures to ensure that it claimed reimbursement at the 90-percent rate
             only for services provided for family planning purposes. Specifically, the State agency
             required providers to use S-codes as primary diagnosis codes, which allowed services
             provided for purposes other than family planning to be incorrectly claimed as family
             planning. The S-code is based on the family planning method selected by the FPACT
             client, not the purpose of the service .




.Medicaid Fconily Plcmning Services in Central Los Angeles County, California (A-09-13-02012)              17
             DHCS' Response to Draft Report
             13-25 FPACT Central L.A
             Page 5


             Rec ommendation: The OIG recommends DHCS establish billing procedures to ensure
             that only services clearly provided for family planning purposes are claimed for
             reimbursement at the 90-percent rate.

             Resp o nse: DHCS partially agrees with the finding and recommendation .

             DHCS disagrees with part of Finding #2 regarding the seven (7) services that "were for
             the testing or treatment of sexual ly transmitted infections (STI), which were not provided
             as part of a family planning visit," pending further clarification from CMS on the criteria
             for family planning-related services (such as STI services) provided pursuant to a family
             planning visit.

             In April 2013, DHCS reached out to CMS for guidance and clarification on the distinction
             between family planning and family planning related services and the sequencing of
             such services. DHCS asked CMS to cla rify and confirm the allowable Federal Fina ncial
             Participation (FFP) rate for family planning and family planning -related services. Finally,
             DHCS requested CMS guidance for the family planning policies to ensure a clear
             understanding of fede ral requirements as they relate to the Family PACT program.
             DHCS has been recently informed by CMS that official clarifying gu idance is being
             drafted and is expected to be released in early 2014.

                • 	 DHCS agrees with the find ing regard ing the five (5) services "provided for other
                    non-family-planning purposes". DHCS has implemented the following corrective
                    action plans.

             System Conversion from S-diagnosis Codes to ICD -9 Codes
             The DHCS, Office of Family Planning (OFP) has completed the system updates
             converting the local Fami ly PACTS-diagnosis codes (S-Codes) to ICD-9-CM codes,
             effective December 30 , 2013. This conversion to ICD-9-CM codes implement system
             edits to ensure appropriate billing by providers and FFP claiming by DHCS.
             Encounters primarily for fami ly planning will carry the family planning ICD-9-CM codes,
             and will be appropriately c laimed at the enhanced FFP rate.
             Encounters primarily for family planning-related services (such as treatment of
             complications from the use of contraceptive methods and treatment of an STI that was
             identified during a family planning visit) will be appropriately claimed at the regular
             FMAP rate .

             The Family PACT Policies. Procedures and Billing Instructions fPPBI) Manual
             The PPBI manual was revised to reflect the conversion from the local Family PACT S­
             Codes to ICD-9-CM codes . With the code conversion, current program policies were
             retained. Additionally , language in some of the PPBI sections was updated to clarify
             family planning and family planning-related policies. The revised PPBI manual was
             published on December 17, 2013.




.Medicaid Fconily Plcmning Services in Central Los Angeles County, California (A-09-13-02012)               18
             DHCS' Response to Draft Report
             13-25 FPACT Central L.A
             Page 6


             In April 2013, DHCS reached out to CMS for guidance and clarification on the distinction
             between family planning and family planning related services and the sequencing of
             such services. This guidance will inform further revisions to the Family PACT PPBI
             manual, if warranted. DHCS has been recently informed by CMS that official clarifying
             guidance is being drafted and is expected to be released in early 2014.

             Continuing Educational Program for FPACT Providers
             OFP has launched a continuing educational program for Family FPACT providers to
             educate providers on the focus of the Family PACT program , what constitutes a family
             planning visit, and distinction between family planning and family planning-related
             services. The training module has been in use since May 2012. The module was
             recently revised for the 2014 Provider Orientation and Update seminars, which started
             in February 2014. As indicated above, CMS guidance will inform further revisions to the
             FPACT PPBI Manual, if warranted, and updates to the continuing education training for
             providers, as indicated.

             Program Integrity Activities
             The OFP has implemented several program integrity activities which assist in the
             processes for identification , collection, reporting , analysis and disposition of
             performance data and information on Family PACT Providers and the provision of
             services. These activities allow OFP staff to regularly measure and monitor provider
             activities against the purpose of the Family PACT program and identify when an
             opportunity exists to improve the quality of program services. Such activities include,
             but are not limited to:

                       o 	 Provider Profiles: Biannual Provider Profiles provides data on OFP
                           identified indicators of utilization management and quality improvements
                           measures that are directly attributable to the Family PACT provider. The
                           intent is to encourage the delivery of high-quality clinical services wh ile
                           promoting responsible use of funding resources .
                       o 	 Medical Record Review Report : A report of qualitative findings, conducted
                           every three or four years to assess the quality of clinical care in the Family
                           PACT Program.
                       o 	 Audits by DHCS, Aud its and Investigations (A&I) : Routine audits are
                           conducted by A& l of Family PACT providers to ensure compliance with
                           program criteria and to recover overpayments, if indicated.

             In addition, OFP will be initiating the fol lowing activities:
                        o 	 Desk Review: Review and analysis of individual provider claims and
                            billing behavior based on current policy.
                        o 	 Onsite Provider Review: Onsite provider review based on information
                            co llected on desk review and provider profiles.




.Medicaid Fconily Plcmning Services in Central Los Angeles County, California (A-09-13-02012)               19
             DHCS' Response to Draft Report
             13-25 FPACT Central L.A
             Page 7


                • 	 DHCS disagrees with the finding regarding the seven (7) services that "were for
                    the testing or treatment of sexually transmitted infections which were not
                    provided as part of a family planning visit."

             In April 2013, DHCS requested CMS guidance and clarification on the criteria for family
             planning-re lated services (such as STI services) provided pursuant to a family planning
             visit. DHCS has been recently informed by CMS that official clarifying guidance is being
             drafted and is expected to be released in early 2014.



             Fi nding #3: Family Planning Related Ser vices were eligible for reimbursement
             only at the regular Fede ral Medical Assi stance Percentage.

             Twenty-three services were family-planning-related but were improperly claimed at the
             90-percent rate . Of these services, 17 were annual visits for ma le patients, and six were
             follow-up visits to a previous family planning visit. Because the services were family­
             planning-related services, they were eligible for Federal reimbursement only at the
             regular FMAP. The amount that OIG disallowed was the difference between
             reimbursement at the 90 -percent rate and reimbursement at the regular FMAP. T he
             State agency 's MMIS lacked edits to prevent family-planning-related services from
             being claimed at the 90-percent rate.

             Recommendat ion: The OIG recommends DHCS establish MMIS edits to ensure that
             FPACT claims meet Federal and State requirements for reimbursement at the 90­
             percent rate and at the regu lar FMAP for fam ily-planning-related services.

             Resp onse: DHCS partially agrees with the finding and recommendation .

                • 	 DHCS agrees with the finding regard ing the six (6) "follow-up visits to a previous
                    family planning visit. Because the services were fam ily planning-related
                    services, they were eligible for Federal reimbursement only at the regu lar FMAP."

             OFP has MMIS edits in place, such as the MMIS 1703 Tab le (Family PACT FFP Table
             for Procedure Codes) which is used to determine the FFP rate for the services covered
             under the Family PACT program. However, there are a few services that may be
             c laimed at the 90-percent rate or at the regular FMAP rate, depending on the type of
             encounter.

             DHCS was in the process of developing an Operational Instruction Letter (OIL) to the
             Fisca l Intermediary (FI) with the instructions to update the system and discontinue the
             inappropriate claiming of 90-percent FFP for the few identified services. However, the
             development of the OIL was placed on hold pend ing the completion of the ICD-9 code




.Medicaid Fconily Plcmning Services in Central Los Angeles County, California (A-09-13-02012)              20
             DHCS' Response to Draft Report
             13-25 FPACT Central L.A
             Page 8


             conversion project With the completion of the ICD-9 code conversion project, DHCS
             will proceed with mov ing forward with the development of the OIL. The State
             anticipates that a System Deve lopment Notice (SON) will need to be initiated to update
             the CA-M MIS system . The projected implementation of th is SON may take up to a year
             or longer, contingent upon the complexity of the changes required by the current
             system. The conversion to ICD-1 0 , currently in progress and is effective October 1,
             2014, may also impact the time line for this project
                 • 	 DHCS disagrees with the part of Finding #3 regard ing the seventeen (17)
                     services that involved annua l male visits, pend ing further clarification from CMS
                     on the criteria pertaining to male fam ily planning visits.

                • 	 In April2013, DHCS requested CMS guidance and clarification on the distinction
                    between family planning and family planning-related services and the sequencing
                    of such services. DHCS has been recently informed by CMS that official
                    clarifying guidance is being drafted and is expected to be released in early 2014.




.Medicaid Fconily Plcmning Services in Central Los Angeles County, California (A-09-13-02012)              21
